No.

 

In the Supreme Court of the United States

MICHAEL PATRICK LATHIGEE,

Petitioner,
v.

BRITISH COLUMBIA SECURITIES COMMISSION
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Nevada

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document
contains 5,775 words, excluding the parts of the documents that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing us true and correct.
Executed on August 5, 2021.

dwn OL

Anna Gres]
Claggett & Sykes Law Firm
